NO.
IN THE
SUPREME COURT OF UNITES STA TES
Linda Baldwin,
Petitioner,
V.
Office of Injured Employee, Council
Respondent,
CERTIFICATE OF SERVICE
I, hereby certify that on this day of October 4, 2021,1 filed the certified foregoing mail
with the Clerk of the Court for the United States Supreme Court. I further certify that on this day,
I sent to this Court one copy (pursuant to Guidance Concerning Clerk’s Office Operations,
(October 4, 2021), I further certify that, as required by Sup. Ct. R. 29 (3), I served one copy of
the foregoing via U. S Mail:
Assistant Attorney General
Daniel Coolidge,
Office of the Attorney General of Texas
P.O. Box 12548
Austin, Texas 78711-2548
512-463-2120

Linda Baldwin, pro se
7029 Villada St.
North Las Vegas, Nevada 89084
(512) 778-0428
Itistime3 @yahoo. com

